<html>
<title> - COLLABORATIVE INITIATIVES: RESTORING WATERSHEDS AND LARGE LANDSCAPES ACROSS BOUNDARIES THROUGH STATE AND FEDERAL PARTNERSHIPS</title>
<body><pre>[Senate Hearing 115-263]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-263

 COLLABORATIVE INITIATIVES: RESTORING WATERSHEDS AND LARGE LANDSCAPES 
        ACROSS BOUNDARIES THROUGH STATE AND FEDERAL PARTNERSHIPS

=======================================================================

                                HEARING

                               BEFORE THE
                               
                            SUBCOMMITTEE ON 
                   PUBLIC LANDS, FORESTS, AND MINING

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2017

                               __________
                               
                               
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-076                      WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0a7b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>       
               
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

                           MIKE LEE, Chairman

JOHN BARRASSO                        RON WYDEN
JAMES E. RISCH                       DEBBIE STABENOW
JEFF FLAKE                           AL FRANKEN
STEVE DAINES                         JOE MANCHIN III
CORY GARDNER                         MARTIN HEINRICH
LAMAR ALEXANDER                      MAZIE K. HIRONO
JOHN HOEVEN                          CATHERINE CORTEZ MASTO
BILL CASSIDY
LUTHER STRANGE

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
                Lane Dickson, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Melanie Stansbury, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Lee, Hon. Mike, Subcommittee Chairman and a U.S. Senator from 
  Utah...........................................................     1

                               WITNESSES

Bail, Kristin, Assistant Director for Resources and Planning, 
  Bureau of Land Management, U.S. Department of the Interior.....     2
Weldon, Leslie, Deputy Chief, National Forest System, U.S. 
  Department of Agriculture, Forest Service......................    11
Moore, Virgil, Director, State of Idaho Department of Fish and 
  Game, on behalf of the Association of Fish and Wildlife 
  Agencies.......................................................    18
Thompson, Tyler, Director, Utah's Watershed Restoration 
  Initiative, Utah Department of Natural Resources...............    29

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Bail, Kristin:
    Opening Statement............................................     2
    Written Testimony............................................     5
Kruse, Dylan:
    Statement for the Record.....................................    48
Lee, Hon. Mike:
    Opening Statement............................................     1
Moore, Virgil:
    Opening Statement............................................    18
    Written Testimony............................................    20
Thompson, Tyler:
    Opening Statement............................................    29
    Written Testimony............................................    31
Weldon, Leslie:
    Opening Statement............................................    11
    Written Testimony............................................    13

 
 COLLABORATIVE INITIATIVES: RESTORING WATERSHEDS AND LARGE LANDSCAPES 
        ACROSS BOUNDARIES THROUGH STATE AND FEDERAL PARTNERSHIPS

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                               U.S. Senate,
 Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Mike Lee, 
Chairman of the Subcommittee, presiding.

              OPENING STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee [presiding]. The hearing of the Senate Energy 
and Natural Resources Subcommittee on Public Lands, Forests, 
and Mining, will come to order.
    The purpose of today's hearing is to discuss the success 
and benefits of collaborative initiatives to restore watersheds 
and large landscapes. Millions of acres of watersheds and 
critical landscapes across the country are deteriorating. 
Invasive species, catastrophic wildfires, and inadequate 
management have badly damaged these lands and continue to 
threaten the health of the same lands. These problems are not 
exclusive to federal lands, of course. Many state and private 
lands face similar threats. Healthy watersheds are essential to 
our environment. They are necessary for our economy and to our 
well-being. They support everything from water quality and 
wildlife habitat to livestock grazing, timber harvesting, and 
recreational opportunities for the American people.
    We have to find innovative ways to restore these lands to 
ensure that they can support these vital functions in the 
future. The haphazard way these lands are managed has proved to 
be one of the biggest obstacles to restoring them. Too often 
federal, state, and local lands are managed independently of 
one another, as if they were in separate universes, with little 
or no coordination between neighboring land managers. This 
patchwork of management strategies tends to breed confusion, it 
tends to create a certain amount of distrust, and it tends to 
produce less than ideal and even bad outcomes with the land 
itself.
    Thankfully, that is not the end of the story. In some parts 
of the country, land managers have cooperated with one another 
to solve these problems, and the results of that kind of 
cooperation are quite promising. One solution they have come up 
with is ``collaborative initiatives.'' These initiatives bring 
together federal, state, and tribal land managers, as well as 
private landowners, to cooperate on landscape restoration 
projects across ownership boundaries so that people do not 
remain in these independent silos focusing only on that which 
is immediately within their stewardship.
    A good example of such an initiative can be found in my own 
state, in the State of Utah. In response to the deteriorating 
condition of watersheds on public and private lands, federal 
and state officials came together and formed the Watershed 
Restoration Initiative, or WRI. For over 12 years, the WRI has 
brought federal, state, and private stakeholders together to 
resolve some of the state's most vexing land management issues 
and restore essential watersheds. To date, WRI has completed 
more than 1,600 projects and restored more than 1.3 million 
acres of land. Another 287 projects spanning 280,000 acres are 
currently underway. Like so much else in politics, WRI is 
successful because it relies on locally-driven, bottom-up 
solutions. WRI's organizational structure empowers regional 
teams and not far-off bureaucracy to identify and prioritize 
projects.
    Collaborative initiatives are true state-based solutions to 
the problems we face. When we let states take the lead, we 
avoid the partisan bickering and red tape that can bog down 
projects by the Federal Government. Today we are going to hear 
about collaborative initiatives that are transforming land 
management across the Western United States. I look forward to 
hearing from our witnesses, who play important roles in these 
successful initiatives.
    I want to quickly introduce each of you and then we will 
proceed to your testimony.
    First, we are going to hear from Ms. Kristin Bail, 
Assistant Director for Resources and Planning for the Bureau of 
Land Management (BLM). Next we will have Ms. Leslie Weldon, 
Deputy Chief for the U.S. Forest Service. Then we will hear 
from Mr. Virgil Moore, Director of the Idaho Department of Fish 
and Game. He is also testifying on behalf of the Association of 
Fish and Wildlife Agencies. Finally, we will hear from Mr. 
Tyler Thompson, Watershed Program Director at the Utah 
Department of Natural Resources. Tyler and the Watershed 
Restoration Initiative are doing outstanding work on the ground 
in Utah.
    Thank you all for being here to testify today, and thank 
you for the great benefit that you confer to federal, state and 
private lands throughout our country and in the parts of the 
country where you work.
    With that, the Committee recognizes Ms. Bail.

STATEMENT OF KRISTIN BAIL, ASSISTANT DIRECTOR FOR RESOURCES AND 
  PLANNING, BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. Bail. Thank you and good morning, Chairman Lee.
    As you said, I am Kristin Bail. I am the BLM's Assistant 
Director for Resources and Planning. And thank you for the 
opportunity to discuss the Bureau of Land Management's efforts 
to advance the on-the-ground landscape restoration and 
conservation of natural and cultural resources through 
collaborative partnerships.
    The BLM is extremely proud to partner with states, local 
governments, counties, tribes and other organizations. The 
relationships we build with our partners are crucial for our 
ability to successfully manage the vast public lands and the 
diverse uses they offer. They help us solve management 
challenges across jurisdictional boundaries, leverage 
resources, create new economic opportunities for local 
businesses and enhance the enjoyment and use of America's 
public lands.
    Nationally, the BLM manages more than 245 million acres of 
surface land and 700 million acres of subsurface mineral estate 
on behalf of the American people. The Federal Land Policy 
Management Act (FLPMA) sets forth the BLM's multiple use 
mission directing that public lands be managed for a variety of 
uses such as conventional and renewable energy development, 
livestock grazing, conservation, mining, watershed protection, 
hunting, fishing, and other forms of recreation and it requires 
that various resources be managed on a sustained-yield basis.
    BLM-managed public lands encompass an incredible number of 
unique ecosystems from the high Mesas, deep canyons and 
spectacular arches of Utah's San Rafael Swell to the glacier-
carved gorges of Oregon's high desert. These lands provide 
forage for livestock, habitat for big game and other species of 
fish and wildlife, harvestable forest products and rewarding 
opportunities for all types of outdoor recreation.
    The BLM strongly supports locally-driven partnership 
efforts to ensure that these valuable public land resources are 
preserved for the benefit of present and future generations. 
The BLM depends on countless partnerships nationwide to manage 
public lands and they are instrumental to our efforts to 
increase public access, facilitate outdoor recreation, control 
invasive species, reduce wildfire risk, and enhance 
conservation.
    My written statement discusses 15 examples, but right now I 
would like to highlight two that have been particularly 
successful at restoring large landscapes--the Utah Watershed 
Restoration Initiative, also known as WRI, and Restore New 
Mexico.
    WRI is a partnership between the BLM, the State of Utah, 
other federal agencies, hunting and fishing groups, private 
landowners and many others that aims to improve water quality 
and quantity, reduce catastrophic wildfire risk, develop 
sustainable agriculture and improve forage and wildlife 
habitat. The BLM, State of Utah, and other partners have 
provided millions of dollars in funding to accomplish on-the-
ground work for projects that provide the most value to local 
communities. Since 2006, more than 1,800 projects have been 
completed or are currently in progress which have treated about 
1.6 million acres and restored over 400 miles of streams to 
proper functioning condition. Notable recent projects include 
removal of pinyon pine and juniper, the installation of guzzler 
systems and hazardous fuel reduction to improve habitat and 
ranges for greater sage grouse, mule deer, elk and pronghorn.
    Like WRI, Restore New Mexico is a partnership between the 
BLM, the State of New Mexico, ranchers, industry and other 
local organizations to restore more than three million acres of 
grasslands, woodlands and riparian areas across the state that 
had been degraded by invasive species and woodland 
encroachment. This initiative also includes the reclamation of 
oil and gas legacy roads, pads and other infrastructure that is 
no longer needed which improves habitat for sensitive species 
of wildlife and plants.
    The BLM has a track record of developing robust 
partnerships to make land management more effective and 
responsive to the needs of local communities while maintaining 
our federal trust resource responsibilities. That said, we know 
there are ways to further improve our work. The BLM looks 
forward to working with the Subcommittee and Congress on this 
important issue.
    Thank you for the opportunity to present this testimony and 
I would be glad to answer questions that you may have.
    Thank you.
    [The prepared statement of Ms. Bail follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you, Ms. Bail.
    Ms. Weldon.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
            SYSTEM, U.S. DEPARTMENT OF AGRICULTURE, 
                         FOREST SERVICE

    Ms. Weldon. Thank you very much and good morning Chairman 
Lee. We really appreciate being part of the conversation this 
morning.
    We also want to share with you the work the Forest Service 
is doing across boundaries through others with collaborative 
initiatives to deliver the mission for the Forest Service. 
Collaborative initiatives have helped the Forest Service to 
deepen relationships that are improving management of 
watersheds and large landscapes and delivering goods and 
services to the public.
    Collaboration has emerged as a primary principle for 
delivering the work of the Forest Service, and we achieve our 
most successful outcomes when we do it with and through others 
across boundaries and with an eye toward sharing commitment and 
stewardship. This is a principle that is shared well with 
states, local governments, industry, NGO's, private landowners 
and interested citizens who are also at the table. Tribes also 
play a key role in shared stewardship as well under the Tribal 
Trust and Treaty Rights Responsibilities held by the Federal 
Government.
    Collaborative outcomes are the foundation for the 2012 
Planning Rule and for outcomes described in the Farm bill, 
Cohesive Wildland Fire Management Strategy, Secure Rural 
Schools (SRS), the Wyden Amendment and other legislation.
    Collaborative initiatives are also helping to leverage 
funds and expertise, boost innovation and speed up the 
timelines for getting projects done. They're a model for 
interagency coordination across states, federal and private 
lands and help us to do more critical work on our nation's 
forests, deep in shared stewardship with the communities we 
serve and can lead to more durable solutions to complex issues.
    Today I'd just like to highlight a few examples for that, 
including the Utah Watershed Restoration Initiative, which 
we'll hear a lot about today, the Forest and Focus Initiative 
in Montana and our partnership with water providers in 
Colorado. I'll also highlight some efforts under the Good 
Neighbor Authority and some other collaborative projects we 
have.
    So as Kristin stated with the Utah Watershed Restoration 
Initiative, the Forest Service is also a part of that. And 
according to our local forest supervisors, the over $500,000 
that the Forest Service has invested so far on an annual basis, 
is returning seven times over in collaborative projects across 
the state on the ground with our forest there. We hope the Utah 
Watershed Restoration Initiative can be a model in other states 
for how we can work across federal, state and private land 
ownerships and harness the power of partnerships on crucial 
restoration projects.
    Montana Governor Steve Bullock's unique forest restoration 
initiative, called Forest and Focus, is designed to address 
forest restoration and industry retention, collaboration and 
partnerships and restoration of tribal, state and forest lands. 
It is investing millions of dollars in projects across 
boundaries to accomplish priority projects including hiring 
state Forest Service liaisons--positions that focus on forest 
restoration activities across landscapes. We're grateful for 
Governor Bullock for the investment he's made of $2 million 
from the Montana Fire Suppression Account to engage directly 
with the Forest Service on projects, and he's currently 
investing in 25 projects statewide which will result in 
supporting mills and sustaining 3,000 jobs.
    In Colorado, the Forest Service has partnered with 
municipal water utilities, conservation districts, businesses 
and state partners to support forest and watershed restoration. 
Collectively, our water provider partners have contributed over 
$28 million which has been matched by $31 million in Forest 
Service funding for vegetation and watershed restoration 
treatments, all of which are serving the water users through 
restoring watersheds that have been affected by wildfire and 
preventing wildfire risk against communities.
    Under the Good Neighbor Authority, the Forest Service is 
working with states to treat more acres across our forested 
landscapes and grasslands. This authority increases our 
capacity by allowing us to work with states in identifying 
shared priorities for forest management and to access state 
agency expertise to accomplish restoration work. We have 
currently executed 83 Good Neighbor agreements in 29 states 
with more work coming online.
    In conclusion, we are most successful when we work together 
with state agencies and other organizations to focus on 
highest-
priority needs to benefit land in surrounding communities. 
We're honored to be stewards of the nation's forest and seek to 
do this best through working with and through others and across 
boundaries as the best way to ensure we're of service to the 
needs for citizens and for those landscapes.
    I look forward to answering any questions you have.
    [The prepared statement of Ms. Weldon follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you.
    Next we will hear from Mr. Moore.

STATEMENT OF VIRGIL MOORE, DIRECTOR, STATE OF IDAHO DEPARTMENT 
              OF FISH AND GAME, ON BEHALF OF THE 
           ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Moore. Thank you, Chairman Lee, especially for getting 
this hearing rescheduled for us today so we could be here, and 
I appreciate the work of the Subcommittee staff in getting that 
done.
    I'm Virgil Moore, Vice President of the Association of Fish 
and Wildlife Agencies and currently Director of Idaho Fish and 
Game. The Association of Fish and Wildlife Agencies has been 
around for a while, 1902, and the Association has been involved 
in almost every piece of major legislation relative to federal 
agencies, many of them having a collaborative foundation from 
the very get-go. The Migratory Bird Act was one of those early 
efforts at collaboration among states and Federal Governments 
and international boundaries.
    Collaboratives come in all sizes and shapes. Some are very 
large. Some of them are small and very local. Some are topical. 
They're focused on water. They could be focused on an 
individual species initially. They could be focused on an 
output.
    But in our, in my experience, I think Senator Crapo, in a 
comment he made about collaboratives--he's been a huge 
supporter of that--is ``Collaboration breaks barriers. 
Collaboration brings people together to find common 
solutions.'' And my written comments are extensive relative to 
a number of examples, but I want to talk a little bit about my 
involvement in collaborative endeavors at the state, regional 
and national scale.
    I found that structured collaboration can be an incredibly 
powerful and effective way for parties with overlapping 
interests and authorities to come together at the state and 
federal level to assist local communities and local entities to 
get things done, to just flat, get things done. And our working 
landscapes have to be sustainable both on a federal, state and 
private basis for those communities that rely on them, whether 
those communities are national in scope or otherwise. But I 
also have the perspective as a State Director and as a 
representative of the Association of Fish and Wildlife 
Agencies, that state authority and sovereignty, relative to 
fish and wildlife, has to be known and respected in these 
collaboratives and typically, they are, as we move forward.
    Our ability to manage fish and wildlife and the trust 
responsibility that comes from that is something that is very 
important as we move through these. Really though, we can call 
them collaboratives today, but our history demonstrates long-
standing, cultural tradition of people and communities working 
together to achieve those common objectives that they need for 
their communities, big and small.
    We recognize wildlife is international and that it does 
cross state boundaries, as well as land ownership boundaries. I 
think the recognition that in the West, Idaho is 63 percent 
federally owned--there's another five percent that's state-
owned properties--making for a whopping two-thirds of the state 
in public ownership. That makes those private lands, most of 
which are very productive agricultural or set at the bottoms of 
some of these federal and state landscapes where we have the 
most productive areas--that's why they were homesteaded--
extremely important to keeping the functioning of all those 
together. What I will tell you though is that of all of these 
ventures and entities that are out there--things like the North 
American Waterfowl Act that has the joint ventures is one of 
the more productive--we've got 18 of those nationally across 
the state.
    I've got a whole series of these initiatives that are out 
there that function on a national scale but some of them, most 
recently, have been the ones that are most important and those 
that address things like prescribed fire. Here's one that's 
really been tough for the Forest Service and for the state 
where we need to manage large landscapes with fire and those 
problems extend a long ways. You burn something in Idaho, it 
gets to Missoula. You create an issue in terms of trying to 
execute collaborative management in the Clearwater Basin 
Collaborative in a whole different state and ecosystem. Those 
are difficult to do but need to be executed. It is these 
collaboratives that are going to make those possible.
    I'll point out the two state collaboratives here real 
quick, while I'm running out of time--but the Idaho Roadless 
Plan that Senator Risch, when he was Governor, promoted and the 
Idaho Sage Grouse Plan that Governor Otter promoted, that I co-
chaired, are examples of statewide collaboratives that were 
very important.
    Thank you, Senator Lee.
    [The prepared statement of Mr. Moore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you, sir.
    Mr. Thompson.

         STATEMENT OF TYLER THOMPSON, DIRECTOR, UTAH'S 
 WATERSHED RESTORATION INITIATIVE, UTAH DEPARTMENT OF NATURAL 
                           RESOURCES

    Mr. Thompson. Thank you, Chairman Lee, for the opportunity 
to testify before this Committee today about Utah's Watershed 
Restoration Initiative, or WRI. As an employee of the Utah 
Department of Natural Resources, I currently serve as the 
Director of WRI. WRI is one of the West's unique success 
stories. It ensures that federal, state and local partners can 
work together across ownership boundaries with unmatched speed 
and efficiency to improve large landscapes.
    Utah's WRI focuses on improving three key things: watershed 
health and biological diversity, water quality and yield, and 
opportunities for sustainable uses of natural resources. Now 
entering its 12th year, the WRI partnership has completed more 
than 1,600 projects and restored more than 1.3 million acres on 
federal, state and private lands in Utah. Investment from over 
500 unique funding sources now exceeds $160 million. Most of 
that funding comes from federal and state sources including, on 
average, more than $5 million annually from the State of Utah, 
over $7 million annually from federal sources, and nearly $2 
million annually from sportsmen's groups.
    Like many successful programs before it, WRI developed out 
of crisis. In the early 2000s, Utah was in the midst of a long-
term drought. Across the state, sagebrush ecosystems were in 
decline as pinyon and juniper trees continued to crowd out 
understory forage plants necessary for both livestock and 
wildlife. Aspen was in decline and invasive species, such as 
cheatgrass, were beginning to dominate large landscapes after 
more frequent and widespread wildfires.
    Utah's WRI has organized itself as a bottom-up initiative 
with five independent regional teams. These teams consist of 
regional resource professionals from federal, state and local 
agencies, as well as sportsmen's groups, environmental 
organizations, private landowners and other natural-resource-
oriented groups. These regional teams identify where 
restoration projects are needed and what needs to be done. The 
teams annually rank their project proposals with guidance from 
WRI administration, which then matches the proposals, in ranked 
order, to appropriate and willing funding sources until funds 
are exhausted. The regional teams then help each other 
implement large-scale restoration projects across ownership 
boundaries.
    For Utah's damaged landscapes, WRI is making a huge 
difference. Burned areas are swiftly being reseeded with plants 
beneficial to wildlife and livestock; stream and riparian 
restoration has improved water flow and quality; sagebrush and 
aspen ecosystems are being restored, benefiting hundreds of 
species that rely on them for food and shelter; sage grouse and 
other at-risk wildlife species are holding steady or increasing 
in numbers; and Utah's sportsmen are enjoying healthier and 
more abundant game statewide.
    Today, I'd like to highlight a few of the more important 
strategies that have helped WRI to be successful over the last 
12 years.
    First. Utah's Department of Natural Resources, or DNR, has 
taken on the major organizing role in WRI. Through federal 
authorities, such as the Wyden Amendment and the Good Neighbor 
Authority, federal agencies have developed assistance 
agreements with DNR. Those agreements send federal funds to be 
pooled with other state and non-governmental resources. This 
allows WRI to fund and complete restoration work across 
ownership boundaries on a larger scale, at a much quicker pace 
and for a fraction of the cost. Over the life of the 
initiative, DNR has routed more than $44 million in federal 
funds through WRI, without taking a dime in overhead.
    Second. The state government system of awarding competitive 
contracts is much more efficient than the federal system. This 
allows WRI to quickly implement restoration projects and 
wildfire rehabilitation by swiftly purchasing seed, completing 
cultural resource surveys and hiring contractors to complete 
the work.
    Third. WRI encourages regional teams to complete large-
scale, cross-boundary, programmatic NEPA work. To advance this 
effort, WRI has developed a special funding source to help 
federal agencies complete the NEPA process in areas where 
restoration is desperately needed but, due to other priorities, 
federal land management agencies may not have the time or staff 
to dedicate to the analysis. WRI-NEPA funds are being made 
available to fund overtime hours for current federal employees 
or to hire outside contractors to help complete this critical 
NEPA work.
    In summary, WRI tackles landscape scale challenges with a 
powerful, effective partnership.
    Thank you again for the opportunity.
    [The prepared statement of Mr. Thompson follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thanks to all of you for your prepared 
testimony. We are now going to have some questions and this 
gives me a unique opportunity, especially if we do not have any 
other members show up, that gives me more time to ask 
questions. So I appreciate your willingness to answer them.
    Mr. Thompson, let's start with you. Wildfire is obviously a 
concern in Utah, as it is in most parts of the Western United 
States. Certainly, it is something that challenges everyone 
everywhere with the type of land susceptible to wildfires, but 
we have a whole lot of those lands in the Western United States 
and especially in Utah. Wildfires burned about 100,000 acres in 
Utah just last year alone--that is a big deal.
    Now our policy discussions often focus, somewhat 
understandably, on fire prevention efforts and on fire 
suppression efforts. It is not surprising that that is the 
case, but it is also important to recognize the significance 
and the deep importance of wildfire rehabilitation because what 
you do after a wildfire can determine a lot in terms of the 
ultimate outcome.
    You referenced WRI's work with wildfire rehabilitation in 
your testimony. I understand the group's efforts on that front 
have been extraordinarily effective. Can you briefly explain to 
us how the program works and why it has been successful?
    Mr. Thompson. Thank you, Chairman Lee. Thank you.
    Utah's program is unique. We've taken this WRI partnership 
and we've utilized it to complete fire rehab, as you mentioned. 
In Utah, we have funding sources that tie into the federal 
stabilization programs that help us to rehabilitate across 
ownership boundaries.
    In 2007, when we had Utah's largest wildfire, the Milford 
Flat Fire, we realized as different agencies that we didn't 
have the time or the resources to complete this on our own, as 
we had been doing for years. So we came together. We tore down 
all the burned fences and we used this WRI partnership to pool 
funds again in DNR. And DNR and WRI came together and put 
contracts out, got the seed purchased, got the seed mixed, had 
it tested and we came up with a single strategy and a single 
seed mix that could be put out across ownership boundaries. 
This was the only way that we were able to actually complete 
that restoration.
    The federal programs have historically focused on 
stabilization, and the State of Utah is unique in the fact that 
it supplements those seed mixes with more forbs and more shrubs 
so that we can complete a full restoration program. I think 
that's something that's unique to Utah and I think it's been 
very successful, and we've been able to tackle these large 
years where we have hundreds of thousands of acres of fires.
    Senator Lee. Thank you.
    Ms. Weldon, let's turn to you. You briefly mentioned the 
Good Neighbor Authority and mentioned that as an effective way 
to deal with restoration issues and to meet restoration goals 
because it allows the Forest Service to work with state 
agencies and to access and benefit from some of the state 
agency expertise. Are there other areas of federal land 
management that could benefit from this type of approach?
    Ms. Weldon. Yes, thanks for your question.
    So we're, with the Good Neighbor Authority, we're really 
starting with the idea that state forestry agencies and the 
national forest and private landowners have a lot of shared 
ownership in outcomes on both sides or all sides of the 
boundaries.
    The example around wildfire is also very important as it 
relates to reducing hazardous fuels, but we also have examples 
where we have states--I believe New Mexico was the first, and I 
believe Oregon--are also working with us for projects that are 
focusing on wildlife habitat improvement. But even beyond that, 
there's opportunities for us to look at things like shared 
management of recreation facilities and that.
    So we're in a mode of really exploring into that and want 
to make sure, as we get confident and good examples early on, 
that we're actively expanding that to other areas where we 
could, where we have shared interest in serving the public and 
through conservation.
    Senator Lee. That is good in a time when every penny 
counts.
    Ms. Weldon. Every penny counts, exactly.
    Senator Lee. That can be very helpful.
    Ms. Weldon. Every penny and every bit of skill and 
expertise counts.
    Senator Lee. Sure. Thank you.
    Now, Ms. Bail, BLM has not enjoyed the benefits of Good 
Neighbor Authority for quite as long as the Forest Service has, 
but is the BLM, so far, having similar success with it?
    Ms. Bail. Yes, sir. We are currently using the Good 
Neighbor Authority and are in the process of expanding it in 
four states. We either have agreements, a grant in development 
or in discussions. And similar to what Ms. Weldon talked about, 
you know, there's a lot of opportunity and utility and need for 
additional arrangements in this regard. And we look forward to 
continuing collaborative discussions with states where we have 
shared interests and needs to fully utilize this very important 
authority.
    Senator Lee. Do you have any idea what areas you think 
might be ripe for that kind of work?
    Ms. Bail. Leslie mentioned recreation, but certainly there 
are millions of acres of areas in the Great Basin and others 
that need treatment, you know, pinyon, juniper, treating 
invasive cheatgrass.
    There are many common interests to preventing the spread of 
that invasive annual grass as well as getting our rangelands 
more productive and more fire resilient. And so, continuing to 
work on those on-the-ground efforts, fostering those 
partnerships and collaborative efforts to look across fences, 
you know, neighbor-up and really prioritize, as you mentioned, 
where we have only limited fiscal resources. Let's do it smart, 
let's do it together, get the most effect for our investment. 
And these collaborative partnership efforts really help us do 
that.
    Senator Lee. Thank you.
    Mr. Moore, this morning we heard about some of the more 
successful collaborative initiatives. Not all, of course, have 
achieved equal results and some have even failed. In your 
experience, what distinguishes those that succeed and perform 
really well and those that do not?
    Mr. Moore. Thank you, Mr. Chairman.
    Certainly, I think it is having very committed individuals 
for the self-governing and self-formed groups that are out 
there. Really what it means though, is people who have 
individual interest, or their entities have interest, is to 
come to the table with an understanding that all of those 
interests have to be accepted and interacted on. What 
undermines them, the ones that I have seen that have failed 
over the years, are people that came in with interest and were 
uncompromising in the approach in which their interest and need 
was addressed. They had a solution that they wanted on the 
table for the issue they brought there and they were not 
willing to find other solutions that met the need of the whole. 
And being sure that we have the necessary mechanisms in place 
to protect those collaboratives as they've moved forward with 
solutions from being undermined unnecessarily by folks that are 
single-
approach in what they do, I think, is very important.
    Certainly, all entities have certain rights relative to the 
processes we have, the public processes we have. But it's been 
my experience that the ones that have been most durable have 
been those where the interests have been broad, I mean, 
everybody is at the table. And when a challenge came to their 
outputs, whatever that might be, they stood together--state, 
federal, county, NGO, tribe, you name it, the private 
landowners--relative to the various administrative challenges, 
even up to and including court review, and they persisted 
because they stood together against those few that might be on 
the outside.
    At the same time, the use of federal processes--in 
particular, NEPA--to stall, delay or interfere with what has 
been well-thought-out collaboratives is an issue that has to be 
taken up by the collaborative, the way that Utah has done it 
with broad-
ranging types of NEPA that are programmatic in nature that can 
get us through those hoops. I do think that we need to 
reexamine NEPA from the standpoint of can we give local 
managers more discretion to use their various decision-making 
authority to get these important things done?
    When it comes to fire rehab, we can cut through all the red 
tape in the world to get things done. When it comes to fire 
prevention, we don't seem to be able to get through the red 
tape. When it comes to management for conservation, then we get 
stalled out. So why can't we use those same mechanisms to get 
the work done to keep a fire from occurring that it might take 
to restore from that fire?
    Senator Lee. Right.
    I have a friend who is fond of saying that when you are 
holding a hammer, and only a hammer, everything looks like a 
nail. It sounds like you are saying if people who are willing 
to recognize that there are tools other than hammers that one 
can use, one is willing to keep an open mind and if you can 
keep those people involved in the process, you can find more 
collaborative solutions.
    Mr. Moore. Agreed.
    Senator Lee. Mr. Thompson, given the onerous litigation 
delays that we hear about with other restoration projects, 
including some collaborative restoration projects, one of the 
more impressive and unusual accomplishments of WRI is that it 
has dealt with very little litigation. How did you do this? How 
did you avoid it?
    Mr. Thompson. Thank you, Senator Lee.
    I think, you know, the way we deal with this in Utah is we 
bring folks together at the beginning. We build large 
collaboratives on the ground, at the ground level. We build 
these collaboratives before we start writing the NEPA. We 
include all of the different stakeholders as we move through 
the NEPA process. There's not always agreement. There's not 
always unanimous consent on the things that we're trying to do, 
but just the fact that we include those folks is extremely 
important.
    And then we write simplified NEPA documents and I think 
that's an art that's been lost in the federal agencies. NEPA 
documents have gotten so large and so unwieldy that they are 
difficult when it comes to the challenges that come. And we 
write very simple, very short documents that still cover all of 
the issues that are important. And, to date, I think we've had 
one challenge, and we were successful when that was litigated.
    Senator Lee. Is there anything we can do, anything that can 
be done with NEPA to make collaborative projects, like WRI, 
move forward more smoothly?
    Mr. Thompson. Certainly in the beginning of the initiative 
we had the categorical exclusions that allowed us to do 1,000-
acre and less projects on federal lands when it came to issues 
that were fuels- and fire-related. Those categorical exclusions 
have since gone away. Those were heavily utilized by the 
watershed initiative and the return of those type of 
categorical exclusions would obviously be helpful.
    Senator Lee. When were those put in? When did they go away?
    Mr. Thompson. I believe they came in during the Bush 
Administration. And I think they were litigated and I'm not 
sure, timing-wise, when they went away, but it's been about a 
decade since we've had use of those.
    Senator Lee. How were they put in in the first place?
    Mr. Thompson. I believe they were part of the Bush 
Administration's Healthy Forest Initiative.
    Senator Lee. Okay, so it was in a regulatory rather than a 
statutory change that brought that up.
    Mr. Thompson. I believe so, yes.
    Senator Lee. Okay, thank you.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    Ms. Weldon, it is good to see you here again today. Thank 
you for testifying.
    Anytime we have discussions about forest management I wish 
we could take folks here in Washington, DC, out to Montana and 
spend time around a table listening to our conservation groups. 
The Rocky Mountain Elk Foundation most recently--two weeks 
ago--was talking about the fact that we can no longer get in 
and do responsible forest management projects. Of course, 
timber is a renewable resource and it just continues to grow 
and grow and grow--we are not thinning. The habitat now is 
getting to be a point where it is not suitable for elk.
    Of course, when Lewis and Clark came out to Montana the elk 
were out in the plains, as were the grizzly bears, but with man 
coming out West, we have moved those animals up in the 
mountains and they have adapted. But when you move them to the 
mountains they have to have grass to eat. When you have the 
thick forest, you do not get the sun down, get the grass sunk 
through the bottom because of the canopies, you do not have 
grass and you do not have elk anymore.
    So it is a serious issue. Never mind the issue of loss of 
our jobs from 30 active sawmills when I was a kid growing up in 
Montana down to eight. We see counties in Montana that have 90 
plus percent of their lands that are controlled by the Federal 
Government, and they pay no taxes. Consequently, we have 
counties that are just dying on a vine, literally, back home 
because we have lost the revenue that used to come off our 
national forests for the jobs, revenue to support our 
infrastructure.
    We have county commissioners now, literally, having to jump 
on snow plows in the wintertime and plow the road to get the 
school buses through because we cannot afford to hire men and 
women to run the graters.
    It is truly a sad state and unfortunately, in my home State 
of Montana, our forests used to have loggers in there 
responsibly managing our forests. Now our forests are crawling 
with lawyers. Virtually every timber project, almost every one 
of them, gets litigated by extreme environmental groups after 
we have outstanding collaborative efforts. You bring everybody 
together--conservation groups, timber industry--and then we get 
litigated and the projects, oftentimes, are halted.
    I strongly support efforts to increase collaborative forest 
management. As you know very well, fire risk and other forest 
health challenges have no regard for these boundaries. I joined 
Senator Amy Klobuchar in sponsoring legislation to encourage 
partnerships between the Forest Service and state foresters to 
carry out cross-boundary restoration projects, including on 
federal lands. Our bill codifies and expands existing 
initiatives and encourages the use of Good Neighbor Authority 
to achieve better forest management. At another hearing just 
last week, Chief Tidwell expressed agreement with these goals. 
I look forward to further discussing this bill with you and 
your colleagues at the Forest Service.
    I have a few questions here, and they will all be for Ms. 
Weldon today. I was struck just a few weeks ago when I brought 
Senator Pat Roberts, Chairman of the Agriculture, Nutrition and 
Forestry Committee, to hear some of these firsthand stories 
from folks on the ground up in Columbia Falls, Montana, up in 
the Northwest part of our state. We had a couple folks 
representing the timber industry there. They are all running a 
single shift, single shift. We had five or six members of the 
press there, and sometimes the story will get construed that 
suggests that the reason we are running single shift is because 
the demand for lumber is not there.
    Our timber folks reminded us that the demand has not been 
better. The constraint is logs. We would run additional shifts 
in our operations if we could get logs--we cannot get enough 
logs. The tragedy, we are having these meetings--we are staring 
at millions of acres of national forest, in some cases, dead 
and dying timber because of beetle kill--and we cannot get in 
there and harvest and responsibly manage our forests. We are 
shipping logs in from Canada. We are shipping logs in from 
hundreds of miles away from neighboring states because we 
cannot get logs and we are surrounded by them there in Montana.
    A question, Ms. Weldon. In your testimony, you highlight 
efforts by the State of Montana to accelerate forest management 
in our national forests, yet I am hearing concerns that Good 
Neighbor Authority is not working as effectively in Montana as 
it should because there are not enough NEPA-ready projects, 
even with the Farm bill's expedited authorities at your 
disposal. Can you discuss the barriers the Forest Service faces 
to completing NEPA on these common-sense projects more quickly?
    Ms. Weldon. Great, thank you very much.
    And I just want to echo your sentiment, you know, my 
experiences in Montana, earlier, really showed the value and 
importance of folks coming together across the landscape and 
really making some great progress.
    So having NEPA-ready projects is a challenge and struggle. 
Part of that comes from the fact that, as you mentioned, there 
is quite a bit of litigation with our projects that we do get 
decisions on. And that has the effect of taking the workforce, 
the experts that would be working on that next NEPA project, 
and having them, you know, preparing for the litigation which 
takes quite a bit of time and energy.
    So what we're working to do is still strengthen and build 
on collaboration for the results, but the region there has, in 
working with the states, looked at ways to increase our 
effectiveness in delivering NEPA. They have several pilots 
they're working on that have us with NEPA strike teams who are 
concentrating their efforts to increase the amount of decisions 
that we can get made and do it in a way that allows that more 
certainty as far as the types of projects that will come out.
    So that's an area that we fully acknowledged. I've had some 
good conversations with the states and other partners on our 
need, as Tyler was saying, for us to really relook at how we 
apply our categorical exclusions, how we look at putting larger 
areas within our analysis so that we can get decisions on 
larger landscapes and then continue to make sure we're 
implementing every efficiency we can in delivering the NEPA 
process to get more work done.
    Senator Daines. Thank you and beyond addressing what, I 
believe, is excessive process and as well as extremely 
excessive litigation, are there reforms to Good Neighbor 
Authority or that build on Good Neighbor Authority that would 
help the Forest Service and their state partners carry out 
forest restoration projects faster?
    Ms. Weldon. One big area of feedback we've been hearing, 
pretty much across the whole country, is around the 
restrictions that are in Good Neighbor Authority associated 
with the ability to share investments and work on road 
construction, reconstruction and maintenance that's associated 
with delivering the work. So that's one area that, as we look 
at a new Farm bill, we would like to address.
    Senator Daines. And my last question, Mr. Chairman, could I 
ask another question? I know I am out of time here.
    Mr. Chairman, thank you, I have one more question for Ms. 
Weldon.
    State foresters are required to develop State Forest Action 
Plans. Is the Forest Service consulting those plans in 
determining where to target fuels and forestry funding and has 
the agency leadership provided direction in that regard?
    Ms. Weldon. I'm happy to report that our regional forester, 
Leon Martin, and the state forester in Montana have, over the 
last couple of years, really increased their efforts to look at 
the best places to make shared investments as it relates to 
reducing hazardous fuels and changing fire behavior.
    The state forest action plans are a basis for that. They're 
also being considered in the places that we are revising or 
updating our forest plans. And it's a requirement within our 
2012 planning rule to ensure that the information available, 
the strategic prioritization that's occurred with state forest 
action plans and others, other type, are considered. So that is 
happening in Montana.
    Senator Daines. Thank you.
    Thank you, Mr. Chairman.
    Senator Lee. Are there any examples any of you can point to 
of successful instances of interstate collaboration? The 
collaboration we are discussing here is important. Can you 
think of any good examples of where this has worked well across 
state lines?
    Mr. Moore.
    Mr. Moore. Senator Lee, certainly there are a number of 
examples of interstate collaboration. I do believe the Sage 
Grouse Initiative that is occupying that large sagebrush-steppe 
habitats that encompass 11 states where the greater sage-grouse 
lives, is a very good example of our attempts at interstate 
collaboration.
    Each state undertook to utilize the same science-based 
conservation objectives in designing unique state plans to 
address that large landscape across those various states. It 
was science-based, but then each state, working with the 
federal, private and state land managers there, came up with 
their own unique methods for dealing with what they felt were 
important to that state, relative to those landscapes, using 
that common science that was out there.
    That common science came from a number of teams that were 
interdisciplinary and multi-state, but ultimately the process 
of NEPA, itself, for getting those plans approved was worked 
forward at the states' request to get this done, but failed as 
a collaborative at the end, in my estimation because once those 
state plans went forward, there was review in this town by some 
that modified those state plans for some states that created 
litigating and other issues associated with implementation 
we're still dealing with today. But it is an example of where 
my Governor put a task force together in the state to design 
across the board with industry and private lands, NGO's, a 
state plan that was honest to the science that did a great job 
of that--I co-chaired that effort for the Governor. And then it 
got spoiled at the end through the federal NEPA process and the 
fact that it was done actually well locally, but it got spoiled 
at the end from, frankly, a DC perspective, I'll be honest with 
you, and we're still trying to sort that out. And 
unfortunately, our local land managers on the federal side are 
somewhat constrained by those.
    Senator Lee. Let me ask you, Ms. Weldon and Ms. Bail, what 
are some things we could do to streamline the NEPA process to 
make it not so burdensome?
    Ms. Weldon. I'll start.
    One thing that we can do is, as I mentioned before, make 
sure that we're making use of the categorical exclusions that 
we do have. We have quite a suite. Some of them came through 
with the Good Neighbor Authority and the Farm bill authorities 
for forestry.
    I think there's a huge opportunity for us to look 
strategically in the context of projects that fit those goals; 
for example, for projects up to 3,000 acres, to reduce fuels, 
to do active forest management in places that there's agreement 
from a priority standpoint.
    The other thing is for us to take a hard look at how we 
need to make sure we can get to a point where NEPA is doing 
what it needs to do from a legal standpoint and get away from, 
perhaps, many requirements that have built up over the years in 
a different era that may not be needed now.
    So we're taking an active look at how to put our field 
folks, our practitioners and our decision-makers, in a place to 
really look at what is the, how do we meet that standard in 
such a way that allows us to do it more quickly, more 
efficiently and frankly, at a larger scale, as we're saying 
before to get more work, decisions for work to get done and 
focus on the implementation.
    Senator Lee. Thank you.
    Ms. Bail.
    Ms. Bail. In addition to what Ms. Weldon discussed, the 
Secretary has issued a memorandum that has started a process 
within the BLM for us to take a hard look at all of our 
processes, the land use planning process, the NEPA process, as 
well as how we comply with laws such as the Endangered Species 
Act, Clean Water Act, et cetera.
    How can we work better among federal agencies, how can we 
improve our business practices and processes, and how do we do 
what we need to do in a transparent way and more effective way 
and more cost-effective way?
    So we're looking at everything from, you know, protest 
processes. We're looking at our internal policies. We're 
looking at are there regulatory things that we can do?
    And then also would look forward to when we have our report 
that we are going to deliver to the Secretary on September 
27th, having a conversation after that about how we can work 
together with this Committee or others who might be interested 
in moving forward on additional opportunities.
    So we are in the process and we are getting a lot of great 
minds in the room and talking with, you know, CEQ and other 
very important folks to get their insights as well as other 
agencies so that--and we're very much focused on making the 
process better. We look forward to sharing what we find out 
here in the next few months.
    Senator Lee. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Mr. Chair, I 
appreciate it.
    And apologies for the delay. I was in another committee 
meeting that was going on at the same time, but this issue is 
just as important to me, so I wanted to be here. And thank you 
for coming today. I know we changed the time of the hearing as 
well.
    I am from the great State of Nevada. Over 80 percent of the 
land is owned as public land. Watershed protection is so 
important for Nevada, and our federal partners are key, as you 
well know.
    Let me start off with Ms. Bail, with the BLM, because they 
are key partners for us in the State of Nevada. You mentioned 
that the BLM has partnered with the Nevada Departments of 
Wildlife and Conservation and Natural Resources, the U.S. Fish 
and Wildlife Service, and Newmont Mining Corporation on a 
sagebrush ecosystem conservation program for managing over 1.5 
million acres of habitat. Can you elaborate on this partnership 
and why it has been so successful?
    Ms. Bail. Thank you, Senator.
    And one thing that I believe is key to the success is that 
it was a willing landowner, voluntary effort, common interests 
and we're using the state conservation credit system, you know, 
so this is the state looking to facilitate conservation, 
financial incentives for doing so and meet conservation 
purposes.
    So those efforts that are built, you know, from the ground 
up that build on common interests that are cross boundary and 
collaborative--all those are very much part of that success. 
And the fact that it is covering more than 1.5 million acres, I 
mean, there's a lot of ground that can be covered there. And 
we're very much looking forward to continuing to fulfill all of 
the opportunity that that provides.
    Senator Cortez Masto. Thank you. I mentioned that because I 
agree with you. I think particularly in Nevada, where you have 
from the ground up all the stakeholders coming together who may 
have differing opinions initially, but when they come together 
they try to find common ground. That should be respected.
    I am hoping that our federal partners, who are part of that 
conversation, and the leaders here are listening and respecting 
that and letting the states and those people that are on the 
ground living there know what's happening, and listening to 
what their recommendations are.
    That's true in Nevada for sage grouse because I know we've 
done the same thing. The Governor has brought together key 
stakeholders trying to address this issue. We have all found 
common ground, and we'd hope that would be respected. So I 
appreciate those comments.
    Talk to me about--and I am going to open this up to Ms. 
Weldon as well--wildfires. We have seen hot spots in Northern 
Nevada, particularly Northern California, and many parts of the 
West. This is going to be a difficult year for us, particularly 
because of cheatgrass. Can you talk a little bit about your 
thoughts on how we address that, particularly in an environment 
where we are cutting funding to the very resources that we are 
going to need, in both your agencies, to address these 
wildfires?
    Ms. Bail. That's where collaboration and partnerships 
become even more crucial. How can we work together, looking 
across fence lines, across boundaries and be strategic? There 
are some areas that are already heavily infested with 
cheatgrass. Do we focus there or do we focus on protecting 
those areas that are still good habitats, still providing good 
livestock forage and, of course, protecting communities' 
economic livelihoods?
    So having those conversations at the ground level and 
working together to determine where the best use of what funds 
we do have can be accomplished, you know, that's very 
important.
    And then it takes a multiplicity of things. It's continuing 
research on how do we treat cheatgrass? You know, there are new 
biocides. How can we create fuel breaks along roads to stop 
fires and give the firefighters a better chance? How can we use 
targeted grazing along roads to natural, you know, through 
grazing, create fuel breaks and also provide an opportunity for 
willing permittees to have another opportunity for forage? 
Working with rural fire protection associations, you know, our, 
the ranchers on the ground that are the first responders that 
can get to a fire more quickly than the federal resources can.
    So it's using all of those tools--having the relationships, 
having the conversation, looking across boundaries--those are 
going to be keys for success because we've got a big problem 
out there, millions and millions of acres and we'll keep 
chipping away at it.
    Senator Cortez Masto. Thank you.
    Ms. Weldon, do you want to add anything?
    Ms. Weldon. I think Ms. Bail said it very well.
    Those efforts to make sure that we're expanding our ability 
to share skills, expertise, in front of this problem, you know, 
which is really critical on a number of fronts, especially with 
our ability to ensure that we can continue with the grazing 
permittees and their uses as well as protecting and concerning 
sage grouse habitat. So, I think Kristin covered it very well.
    Another thing to mention is around this, the great 
collaboration that's occurring with wildfire through the 
National Cohesive Wildfire Strategy. And that is really calling 
on prioritizing to the very local level, identifying important 
resources and looking at maximizing the impact of what everyone 
can contribute to achieve outcomes for the landscape, but more 
importantly for good suppression efforts and being able to 
protect community and community values.
    Senator Cortez Masto. Thank you.
    Thank you, Mr. Chair.
    Senator Lee. Thank you.
    Mr. Thompson, what is the biggest obstacle to preventing or 
that prevents your expansion, that prevents you from doing more 
from your effort, that is stopping your effort from expanding 
its reach?
    Mr. Thompson. Certainly funding is always an obstacle for 
us. We have, on average, about $30 million of requests each 
year. We can usually come up with about $15 or $18 million of 
that each year. So we have enough work on the ground. We have 
enough NEPA on the shelf and folks that are ready to implement 
shovel-ready projects. We just need the funding. We need more 
funding to help us get that in place.
    And then, the areas that we are struggling with NEPA and, 
you know, any resources that we can develop or that we can 
apply to the federal agencies to help them hire employees or 
find outside contractors or whatever needs to be done to help 
get more of that NEPA on the shelf and do it at a large scale 
and provide areas for us to move into where we can complete 
restoration year after year after year. Those are the real 
bottlenecks that we're struggling with.
    Senator Lee. When you look at an area that has been 
affected by a fire 20 years down the road, one that has had a 
rehabilitation effort, can you tell an immediate difference 
between those that have received rehabilitation and those that 
have not?
    Mr. Thompson. Absolutely. In this day and age where we have 
the destructive wildfires and we have species that have come 
from across the world and are invading these different wildfire 
areas, they do not set themselves on the trajectory that they 
have in the past. And so, when we come in and do this 
restoration work, it actually sets it onto a trajectory that 
we'd like to see it set on and that actually makes those areas 
more resilient and more resistant when wildfires come in.
    We've seen in Utah where we've had effective wildfire 
rehabilitation, fires starting in those areas or moving into 
those areas and slowing down, the flame lengths are reduced. 
They've gotten to the point where active firefighter resources 
can be moved in and fight those fires. And we've also seen that 
if those areas do burn, that they come back on their own, that 
they don't need as much active restoration following a 
subsequent wildfire event.
    Senator Lee. So it's a dramatic acceleration of the 
improvement of the recovery.
    Mr. Thompson. Absolutely.
    Senator Lee. Okay. Thank you.
    I have no further questions.
    Senator Cortez Masto, do you have anything else?
    Senator Cortez Masto. Just a quick follow-up.
    I am curious, Mr. Moore and Mr. Thompson, as representing 
your states, what else can we be doing? What else should we be 
doing at the federal level to address your concerns and work 
with you at the state and local levels?
    Mr. Thompson. You know, the other issue that we deal with 
in Utah is that we need more involvement from the private 
landowners. So certainly anything we can do to reauthorize the 
Farm bill to give us more flexibility with it.
    One of the issues that we run into quite a bit is the 
income levels of a lot of our landowners--they're not eligible 
for Farm bill funding and there's still a lot of good patchwork 
private lands that still need restoration. We have to skip over 
those or we have to find state funding to put onto those 
private lands because they've hit either the income level or 
they've hit the Farm bill, I think it's a $400,000 maximum over 
the life of the Farm bill.
    We run into that maximum a lot with private landowners too 
where, you know, we're doing such large amounts of work and 
such big projects that those are quickly reached and we have 
to, kind of, skip over those landowners until the next Farm 
bill is authorized.
    Senator Cortez Masto. Okay.
    Mr. Moore, anything to add?
    Mr. Moore. Thank you, Senator.
    Certainly, I think that providing the resources necessary 
to get more private landowners involved in these multi-
landowner landscapes that include the state lands, the private 
lands and the federal lands. Certainly those boundaries don't, 
are meaningless, to the resources we manage out there, to a 
large degree. And those incentives, each state is unique in 
that.
    I am jealous of the State of Utah for the amount of 
legislative resources they get from their legislature. At the 
same time, we get a small amount but it needs to be augmented. 
We need to have the ability for resources to move transparently 
across boundaries and in some cases, state boundaries.
    Idaho needs to maybe move across with Nevada or Utah in 
those areas where we have common landscapes that abut each 
other without even thinking about it. Those need to be 
preplanned and pre-implemented.
    And certainly there are unique aspects, but we know how to 
do that when we fight a fire. Again, I go back to that. We 
haven't quite figured out how to do that as effectively when 
we're trying to prevent fires or manage the resources within 
each of those jurisdictions or land ownerships. I know we can 
do it. I've seen it work.
    So it's just a matter of figuring out how to get that 
transparently done and incorporate those private landowners 
into the effectives because the landscapes they live on--the 
landscape, especially in our sagebrush-steppe habitats, they 
live on and they function in are their home regardless of the 
ownership. They have an important component with those wet 
areas down there for the biological resources I have 
responsibility for. But they depend on the uplands, both state 
and federal lands. And so, we've got to figure out how to 
combine all those together. I've got ranchers that move across 
state boundaries quite readily. They own property in all three 
states so they know how to manage across those and we need to 
incorporate them in.
    So that is one of the issues, I think, that collaboratives 
need to recognize and we need to go through. We have great 
collaboration among the state agencies across state boundaries. 
We've figured out how to maintain each entity's unique 
management and state law responsibilities while achieving the 
common goal of the management of those resources for all of the 
people out there. We need to figure out how to do that with the 
federal lands as well.
    Senator Cortez Masto. I agree. Thank you.
    Thank you for your comments, I appreciate it.
    Senator Lee. I do have a couple of other questions I would 
like to get into if that's okay.
    Ms. Weldon, it occurs to me that Good Neighbor Authority 
does not extend to road repair or reconditioning of roads, 
things like that. Could this possibly be a good opportunity to 
expand Good Neighbor Authority?
    Ms. Weldon. Yes, we have gotten quite a bit of feedback in 
our first few years of implementing Good Neighbor Authority 
from the states that said this is another area that, if there 
were some adjustments made to relax the restrictions around 
road construction, rather road reconstruction and maintenance, 
that it would allow the more certain accomplishment of projects 
and expand the number of opportunities for that.
    Senator Lee. Okay, thank you.
    And then, Mr. Thompson, what can you tell me about your 
seed bank? What's unique about the Utah seed bank?
    Mr. Thompson. So, Utah is one of the only states in the 
West, I believe, that has its own seed warehouse. Our seed 
warehouse was built with funds from both the Forest Service and 
the BLM. It's expanded to a capacity of about 1.5 million 
pounds.
    And one of the unique things in Utah is that the BLM has 
actually signed an agreement with Utah that makes our seed 
warehouse part of the BLM's network. And so, BLM employees can 
utilize our seed warehouse as if it were their own. And what 
that does is that it really allows us to purchase seed 
together. It allows us to go out earlier because we're 
utilizing that state procurement system that's much more 
efficient than the federal system.
    We test the seed. We mix it together with the seed that 
they've purchased and the seed that we've purchased. It makes 
the whole operation much more efficient and has been a key part 
of Utah's success.
    Senator Lee. And you use that substantially, I would 
imagine, in your rehabilitation efforts?
    Mr. Thompson. Absolutely. And in our regular efforts too. 
We put a lot of seed out just through our regular watershed 
restoration efforts as well.
    Senator Lee. Okay, great.
    Senator Cortez Masto, anything else?
    Any other member of the Committee?
    If not, I want to thank all of our witnesses, again, for 
being here today. Thank you for your testimony. It has been 
very helpful.
    Members will be free to submit questions for the record. 
The hearing record will be remaining open for another two 
weeks.
    The hearing stands adjourned. Thank you.
    [Whereupon, at 11:09 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
